Office of Audits and Evaluations
Report No. AUD-12-010


Controls Related to the FDIC’s Contract with
KeyCorp Real Estate Capital Markets, Inc.




                                    July 2012
                                      Executive Summary

                                      Controls Related to the FDIC’s Contract with
                                      KeyCorp Real Estate Capital Markets, Inc.
                                                                                      Report No. AUD-12-010
                                                                                                   July 2012

Why We Did The Audit
Within the FDIC, the Division of Resolutions and Receiverships (DRR) has primary responsibility for
resolving failed FDIC-insured depository institutions, including the liquidation of assets in receivership.
During 2010, DRR undertook an initiative to consolidate the servicing of loans and related assets in
receivership with external “national” loan servicers, such as KeyCorp Real Estate Capital Markets, Inc.
(KeyCorp). As of March 31, 2012, the FDIC had four national loan servicers that collectively serviced
3,182 assets with a net unpaid principal balance of about $2.04 billion. KeyCorp was the largest of these
servicers in terms of asset size, servicing $1.23 billion (or 60 percent) of the $2.04 billion.

In view of the significant role that KeyCorp plays in servicing receivership assets, the Office of Inspector
General (OIG) conducted a performance audit of controls related to the FDIC’s contract with KeyCorp.
Our performance audit objective was to assess (1) the extent to which payments made by the FDIC for
services provided by KeyCorp were adequately supported and in compliance with contract terms, (2) the
reliability of selected data used to manage and market assets serviced by KeyCorp, and (3) the adequacy
of certain controls over sensitive information handled by KeyCorp.


Background
On July 26, 2010, the FDIC awarded a contract (referred to herein as “the Contract”) to KeyCorp for the
servicing of assets (primarily commercial loans) in receivership. Under the terms of the Contract,
KeyCorp provides a full range of servicing activities, such as maintaining loan files, performing loan
administration, loan default management, and collection and cash management services, and assisting, as
requested, with asset sale initiatives. As compensation for its services, the FDIC pays KeyCorp various
types of fees, including monthly servicing fees and transaction fees for loan conversion activities, loss
mitigation efforts such as loan compromises and restructures, and foreclosures. The FDIC also
reimburses KeyCorp for pass-through costs, such as taxes and insurance, and advances pursuant to loan
commitments. As of March 31, 2012, payments to KeyCorp under the Contract totaled almost
$23 million.

KeyCorp maintains a significant amount of data that are used to support important business decisions
regarding the management and marketing of assets. Accordingly, it is critical that the data be reliable
(i.e., accurate, and complete). To help ensure the reliability of this data, DRR has taken various steps,
such as incorporating data quality requirements into the Contract, periodically testing the accuracy of loan
data maintained by KeyCorp, and initiating an internal “Loan Data Structure Project” in 2011 to help
ensure the accuracy of receivership data captured and maintained by DRR and its contractors.

Key controls for protecting sensitive information handled by KeyCorp include background investigations,
confidentiality agreements, risk-level designations for contracts and contractor personnel, subcontractor
approvals, and contract security provisions. The FDIC’s Division of Administration (DOA), through the
Contracting Officer, works with DRR to ensure that these controls are implemented. Further, the FDIC
established the Outsourced Service Provider Assessment Methodology to provide security oversight of
outsourced service providers, such as KeyCorp. The methodology considers various security information
to establish quantifiable risk ratings and, based on those ratings, defines procedures for verifying security
measures and processes. Collectively, the security controls referenced above help to ensure that
contractor and subcontractor personnel meet the FDIC’s minimum standards of integrity and fitness and
that sensitive information is safeguarded from unauthorized disclosure.


                               To view the full report, go to www.fdicig.gov
  Executive Summary
                                     Controls Related to the FDIC’s Contract with
                                     KeyCorp Real Estate Capital Markets, Inc.
                                                                                      Report No. AUD-12-010
                                                                                                   July 2012


Audit Results
The preponderance of payments made by the FDIC to KeyCorp were adequately supported and were in
compliance with the terms of the Contract for the charges that we analyzed. The payment discrepancies
that we identified were not material in relation to the total charges that we reviewed and were addressed
prior to the close of the audit. Notwithstanding these results, the relatively high error rate in our sample
indicates that a review by DRR of KeyCorp’s billing procedures is warranted. In addition, invoices
supporting the charges that we analyzed had been reviewed and approved by DRR prior to payment as
prescribed by FDIC policy. However, in light of the large volume of charges and associated
documentation, a more risk-based approach for reviewing servicer invoices could promote efficiencies
and consistency in DRR’s review processes.

DRR has taken a number of steps to ensure the reliability of data used to manage and market assets
serviced by KeyCorp. However, DRR can achieve greater assurance regarding the reliability of such data
by establishing and implementing a more structured data quality program that includes such things as
objective metrics to measure data reliability, enhanced policies and guidance, and improved contract
provisions that address ongoing data reliability.

The FDIC conducted preliminary security checks and obtained signed confidentiality agreements for all
of the KeyCorp contractor and subcontractor personnel that we reviewed. However, we identified
instances in which background investigations had not been initiated as required by FDIC policy. In
addition, the risk level designation for the Contract needed clarification. Further, KeyCorp did not obtain
the FDIC’s prior written approval before engaging a subcontractor to work on the Contract or include
certain security-related provisions in its subcontracts as required by the Contract. Finally, the FDIC was
working to apply its Outsourced Service Provider Assessment Methodology to assess security risks and
controls at KeyCorp. Addressing the security control weaknesses identified during the audit will increase
the FDIC’s assurance that sensitive information is adequately protected and that contractor and
subcontractor personnel satisfy the FDIC’s minimum standards of integrity and fitness.

We plan to report $12,057 in unsupported questioned costs pertaining to the payment discrepancies
identified during the audit in our next Semiannual Report to the Congress. The amount ultimately
disallowed by the FDIC may change based on management’s final decision after evaluating the findings
and recommendations in the audit report.

Recommendations and Corporation Comments
The report contains seven recommendations intended to improve controls related to the accuracy and
review of KeyCorp’s invoices, the reliability of receivership data, and the safeguarding of sensitive
information. The Directors, DOA and DRR, provided a joint written response, dated June 19, 2012, to a
draft of the report. In the response, the Directors concurred with all seven of the report’s
recommendations and described completed and planned corrective actions to address the
recommendations. As described in the report, DRR and DOA officials clarified actions that will be taken
to address two of the report’s recommendations subsequent to our receipt of management’s written
response. Further, we provided relevant portions of the draft report to KeyCorp for its review and
informal comment. In response, KeyCorp provided us with the status of completed and planned
corrective actions to address the issues described in the report. We considered the information provided
by KeyCorp in finalizing our report.


                               To view the full report, go to www.fdicig.gov
                                Contents
                                                                      Page
BACKGROUND                                                              2

AUDIT RESULTS                                                           6

Payments to KeyCorp                                                     6

Controls Related to Data Reliability                                   10

Controls Related to Sensitive Information                              13

CORPORATION COMMENTS AND OIG EVALUATION                                17

Appendices
  1. Objective, Scope, and Methodology                                 18
  2. Monetary Benefits Terms and Results                               22
  3. Glossary of Terms                                                 24
  4. Acronyms                                                          26
  5. Corporation Comments                                              27
  6. Summary of the Corporation’s Corrective Actions                   31

Tables
   1. Summary of Assets Serviced by KeyCorp as of March 31, 2012        3
   2. Summary of Payment Discrepancies                                  7
   3. Discrepancies in Asset Type and Collateral Type Data Elements    11
Federal Deposit Insurance Corporation                                            Office of Audits and Evaluations
3501 Fairfax Drive, Arlington, Virginia 22226                                         Office of Inspector General


DATE:                                       July 3, 2012

MEMORANDUM TO:                              Bret D. Edwards, Director
                                            Division of Resolutions and Receiverships

                                            Arleas Upton Kea, Director
                                            Division of Administration


                                            /Signed/
FROM:                                       Stephen M. Beard
                                            Deputy Inspector General for Audits and Evaluations

SUBJECT:                                    Controls Related to the FDIC’s Contract with KeyCorp
                                            Real Estate Capital Markets, Inc.
                                            (Report No. AUD-2012-010)


This report presents the results of our audit of controls related to the FDIC’s contract with
KeyCorp Real Estate Capital Markets, Inc. (KeyCorp).1 KeyCorp provides nationwide
servicing of assets (primarily commercial loans)2 in receivership on behalf of the FDIC.

Our performance audit objective was to assess (1) the extent to which payments made by
the FDIC for services provided by KeyCorp were adequately supported and in
compliance with contract terms, (2) the reliability of selected data used to manage and
market assets serviced by KeyCorp, and (3) the adequacy of certain controls over
sensitive information handled by KeyCorp. To address our objective, we reviewed
KeyCorp invoices and supporting documentation, evaluated data reliability controls, and
assessed contract and oversight controls designed to protect sensitive information.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objective.
Appendix 1 of this report includes additional details regarding our objective, scope, and
methodology. Appendix 2 contains monetary benefit terms and results. Appendix 3
contains a glossary of key terms, and Appendix 4 contains a list of acronyms.

1
  KeyCorp is a business unit of KeyBank USA National Association, which is a wholly-owned subsidiary
of Cleveland, Ohio-based KEYCORP, one of the nation’s largest bank-based financial services companies.
KeyCorp engages in the origination of agency loans and the servicing of commercial real estate loans for
others. The company’s loan servicing business is based in Overland Park, Kansas.
2
  Certain terms that are underlined when first used in this report are defined in Appendix 3, Glossary of
Terms.


                                                           1
BACKGROUND
Within the FDIC, the Division of Resolutions and Receiverships (DRR) has primary
responsibility for resolving failed FDIC-insured depository institutions, including the
liquidation of assets in receivership. During 2010, DRR undertook an initiative to
consolidate the servicing of loans and related assets in receivership with external
“national” loan servicers, such as KeyCorp. As of March 31, 2012, the FDIC had 4
external loan servicers that collectively serviced 3,182 assets with a net unpaid principal
balance of about $2.04 billion. KeyCorp was the largest of these servicers in terms of
asset size, servicing 972 assets totaling $1.23 billion (or 60 percent) of the
$2.04 billion.

The KeyCorp Contract

On July 26, 2010, the FDIC awarded Receivership Basic Ordering Agreement contract
RECVR-10-G-0171 (referred to herein as “the Contract”) to KeyCorp. Under the terms
of the Contract, KeyCorp provides a full range of servicing activities for assets in
receivership. The Contract has an initial term of 3 years, three separate 2-year option
periods, and a 1-year option period, for a total potential period of performance of
10 years. The FDIC typically awards separate task orders under the Contract for
individual receiverships. The task orders identify the specific assets to be serviced by
KeyCorp. As of March 31, 2012, the FDIC had awarded 101 task orders resulting in
almost $23 million in payments to KeyCorp.

Key activities to be performed by KeyCorp under the Contract include:

      Maintaining appropriate loan files and performing loan administration, including
       loan payment processing, escrow maintenance, and advances under unfunded
       commitments or for collateral protection.

      Conducting loan default management, such as monitoring delinquencies and loss
       mitigation activities, including loan restructures, modifications, compromises, and
       foreclosures.

      Performing collection and cash management services and monthly bank account
       reconciliations.

      Assisting, as requested, with asset sales initiatives and performing services related
       to owned real estate assets, as needed.

      Providing weekly and monthly reports of asset balances and related transactions.

      Ensuring the quality and integrity of loan data transferred to KeyCorp.




                                             2
       Ensuring that all contractor and subcontractor personnel with access to sensitive
        information are subject to background investigations appropriate to the risk level
        of the Contract.

As compensation for its services, the FDIC pays KeyCorp various types of fees,
including a monthly servicing fee that is based on the amount of the unpaid principal
balances of the assets being serviced. The Contract defines three different types of loan-
related assets to be serviced—mortgage loans; non-mortgage loans; and judgments,
deficiencies, and charge-offs (JDC). Each of these three asset types has its own fee rates.
Fee rates for mortgage loans and non-mortgage loans are dependent on whether the loans
are performing or non-performing. In addition to monthly servicing fees, the FDIC pays
transaction fees for loan conversion activities, loss mitigation efforts such as loan
compromises and restructures, and foreclosures. The FDIC also pays fees based on the
number and types of reports that KeyCorp produces. Further, the FDIC reimburses
KeyCorp for pass-through costs, such as taxes and insurance, and advances pursuant to
loan commitments. Table 1 describes the types and amounts of assets serviced by
KeyCorp as of March 31, 2012.

Table 1: Summary of Assets Serviced by KeyCorp as of March 31, 2012
                                                    Asset Status
           Type of Asset                 Performing(*)          Non-                Total        Percent
                                                             Performing
 Commercial Non-Mortgage
 Loans
   Unpaid Principal Balance (000s)           $19,355           $158,207           $177,562         15%
                      Asset Count              25                123                148            15%
 Commercial Mortgage Loans
   Unpaid Principal Balance (000s)          $566,776           $396,372           $963,148         78%
                      Asset Count             517                272                789            81%
 JDCs
   Unpaid Principal Balance (000s)             NA               $90,437           $90,437          7%
                      Asset Count              NA                 35                35             4%
 Total Assets
   Unpaid Principal Balance (000s)          $586,131           $645,016          $1,231,147       100%
                      Asset Count             542                430                972           100%
 Source: Office of Inspector General’s (OIG) analysis of data in the KeyCorp Detail Trial Balance Report
 for the month ended March 31, 2012.
 (*)
     For the purposes of this table, “performing” refers to loans that are less than 91 days past due.

Contract Administration and Oversight Management

The FDIC’s Division of Administration (DOA) has primary responsibility for issuing
policies and procedures that govern the Corporation’s contracting program. DOA has
issued the Acquisition Policy Manual (APM), which defines policies and procedures for
procuring goods and services and assigning key roles and responsibilities in all phases of
the procurement process. According to the APM, the Contracting Officer (CO) has
overall responsibility for ensuring compliance with the terms of FDIC contracts and for
protecting the FDIC’s interests in its contractual relationships. The CO’s duties include


                                                     3
the appointment of an FDIC employee to serve as a contract Oversight Manager (OM) to
monitor and evaluate the contractor’s performance. The CO may also appoint one or
more Technical Monitors (TM) to assist the OM with contract oversight authorities,
duties, and responsibilities.

The CO assigned to the Contact has designated an OM and multiple TMs. The
responsibilities of the OM and TMs are defined in formal appointment memoranda issued
by the CO. The OM’s appointment memorandum states that the OM is responsible for
such things as approving invoices and ensuring that appropriate background
investigations are obtained for contractor and subcontractor personnel. TMs are
responsible for receiving and reviewing required reports, participating in periodic
contract compliance reviews, and assisting the OM in the evaluation of invoices.
Separate TMs have been designated to support critical areas, such as credit, legal, and
accounting.

An important aspect of the FDIC’s oversight of KeyCorp is DRR’s periodic reviews to
assess the company’s overall compliance with the operational and credit-related
requirements of the Contract. At the time of our audit, DRR had completed three such
reviews and made a number of recommendations to improve KeyCorp’s operations. In
addition, DRR’s Internal Review staff issued a report in July 2011 on the division’s
oversight of external loan servicers. The report concluded that commercial loan servicers
under contract with the FDIC, including KeyCorp, were being effectively managed by
DRR.

Data Reliability

KeyCorp maintains a significant amount of data pertaining to receivership assets that are
used to support important business decisions. Accordingly, it is critical that the data be
reliable (i.e., accurate and complete). The Government Accountability Office’s (GAO)
November 1999 publication entitled, Standards for Internal Control in the Federal
Government, identifies a number of internal control activities that organizations can
consider implementing to promote accurate and complete computer-processed data. Such
internal control activities include, for example, data edit checks, verifications, and
reconciliations. According to the publication, organizations should design and implement
internal control activities based on related costs and benefits.

In 2011, DRR initiated the “Loan Data Structure Project” to help ensure the accuracy of
receivership data captured and maintained by DRR and its contractors. The project
involves reviewing the definitions and associated business rules for more than 1,100 data
fields to ensure that they are adequately defined and consistently applied as data flows
through the various DRR business lines. As part of this effort, DRR is working to
identify potential duplication and non-essential data elements. Further, because DRR has
placed increased reliance on external loan servicers in recent years to collect, manage,
and report data pertaining to receivership assets, DRR is coordinating with its external
loan servicers, such as KeyCorp, on the project.




                                            4
Information Security

Key controls for protecting sensitive information handled by KeyCorp include:

        Background Investigations. FDIC Circular 1610.2, Personnel Security Policy
         and Procedures for FDIC Contractors, describes the FDIC’s processes for
         ensuring that contractors and their personnel meet the FDIC’s minimum
         standards of integrity and fitness. Generally, these processes consist of
         conducting preliminary security checks of contractors and their personnel and
         ordering background investigations from the U.S. Office of Personnel
         Management (OPM) for contractor personnel with long-term access to FDIC
         facilities, systems, or sensitive information.3

        Confidentiality Agreements. The APM requires authorized contractor
         representatives and all key contractor personnel to sign confidentiality
         agreements prior to receiving or collecting sensitive information. The purpose of
         the agreements is to mitigate the risk of unauthorized disclosure of sensitive
         information.

        Subcontractor Approvals. The Contract states that KeyCorp must obtain the
         prior written approval of the CO before engaging subcontractors to perform
         services on behalf of the Corporation. Such approvals are required, in part, to
         ensure that subcontractors and their personnel meet the FDIC’s minimum
         standards of integrity and fitness.

        Contract Security Provisions. The APM requires that certain security
         provisions be included in FDIC contracts and subcontracts to safeguard sensitive
         information and ensure that contractors, subcontractors, and their personnel meet
         the FDIC’s minimum standards of integrity and fitness.

        Security Oversight. The FDIC established the Outsourced Service Provider
         Assessment Methodology to provide security oversight of outsourced service
         providers, such as KeyCorp. The methodology considers various security
         information to establish quantifiable risk ratings and, based on those ratings,
         defines procedures for verifying security measures and processes.

Our audit included an assessment of the above controls as they pertain to KeyCorp.




3
  Preliminary security checks consist of such things as fingerprint criminal records checks and reviews of
personnel security questionnaires and credit reports. OPM background investigations consist (at a
minimum) of a National Agency Check with Inquiries, which is a search of federal investigative databases
maintained by the Federal Bureau of Investigation and other federal agencies, together with written
inquiries of employers, educational institutions, law enforcement agencies, and references. The scope of
OPM background investigations is based on the risk level associated with the duties of the individual.


                                                    5
AUDIT RESULTS
The preponderance of payments made by the FDIC to KeyCorp were adequately
supported and were in compliance with the terms of the Contract for the charges that we
analyzed. The payment discrepancies that we identified were not material in relation to
the total charges that we reviewed and were addressed prior to the close of the audit.
Notwithstanding these results, the relatively high error rate in our sample indicates that a
review by DRR of KeyCorp’s billing procedures is warranted. In addition, invoices
supporting the charges that we analyzed had been reviewed and approved by DRR prior
to payment as prescribed by FDIC policy. However, in light of the large volume of
charges and associated documentation, a more risk-based approach for reviewing servicer
invoices could promote efficiencies and consistency in DRR’s review processes.

DRR has taken a number of steps to ensure the reliability of data used to manage and
market assets serviced by KeyCorp. However, DRR can achieve greater assurance
regarding the reliability of such data by establishing and implementing a more structured
data quality program that includes such things as objective metrics to measure data
reliability, enhanced policies and guidance, and improved contract provisions that address
ongoing data reliability.

The FDIC conducted preliminary security checks and obtained signed confidentiality
agreements for all of the KeyCorp contractor and subcontractor personnel that we
reviewed. However, we identified instances in which background investigations had not
been initiated as required by FDIC policy. In addition, the risk level designation for the
Contract needed clarification. Further, KeyCorp did not obtain the FDIC’s prior written
approval before engaging a subcontractor to work on the Contract or include certain
security-related provisions in its subcontracts as required by the Contract. Finally, the
FDIC was working to apply its Outsourced Service Provider Assessment Methodology to
assess security risks and controls at KeyCorp. Addressing the security control
weaknesses identified during the audit will increase the FDIC’s assurance that sensitive
information is adequately protected and that contractor and subcontractor personnel
satisfy the FDIC’s minimum standards of integrity and fitness.


Payments to KeyCorp
We used both statistical and non-statistical sampling techniques4 to analyze 44 invoices
that had been approved for payment to KeyCorp during the period July 26, 2010 through
September 30, 2011. Specifically, we determined whether:

        the charges on the invoices were allowable under the terms of the Contract;



4
  A non-statistical sample is judgmental and cannot be projected to the intended population by standard
statistical methods. See Appendix 1 for a detailed description of the sampling methodology used during the
audit.


                                                    6
          charges pertaining to a non-statistical sample of loans on the invoices were
           supported by underlying documentation and, for fee invoices, were consistent
           with the fee rates defined in the Contract; and

          DRR personnel had reviewed and approved the invoices prior to payment.

In addition, we conducted a limited review of two non-statistically selected loans on two
additional invoices to determine whether KeyCorp had used the correct collateral type
and unpaid principal balance amounts when computing monthly servicing fees.

Except as noted in Table 2, payments made to KeyCorp were adequately supported and
in compliance with the terms of the Contract for the charges that we analyzed. The
payment discrepancies that we identified were not material in relation to the total charges
that we reviewed and were addressed prior to the close of the audit. Accordingly, we are
not making recommendations to address these payment discrepancies. In addition, the
invoices supporting servicing fees and pass-through costs had been reviewed and
approved by the OM prior to payment as prescribed by the APM. A brief description of
each discrepancy follows the table.

Table 2: Summary of Payment Discrepancies
                                                                             Amount of
 Item               Description of Discrepancy                    Invoice   (Under) Over
                                                                  Number      Payment
   1     Incorrect collateral type used to calculate the loan       345      ($2,330.61)
         service fee.
   2     Incorrect collateral type used to calculate the loan       361       ($41.72)
         service fee.
   3     Incorrect collateral type and unpaid principal balance     215       $2,257.50
         amount used to calculate the loan service fee.
   4     Incorrect unpaid principal balance amount used to          164       $764.56
         calculate the loan service fee.
   5     Duplicate payment of legal expenses.                       327      $11,407.32
                                 Net Overpayment by the FDIC                 $12,057.05
Source: OIG’s analysis of sampled KeyCorp invoices.

Items 1 and 2

KeyCorp incorrectly billed two non-performing commercial loans as non-mortgage loans
instead of mortgage loans. Because the non-performing servicing fee rate for non-
mortgage loans is lower than for mortgage loans, the FDIC was undercharged by the
amounts listed in Table 2. In researching the discrepancies, KeyCorp determined that
these same assets were incorrectly billed on invoices outside of our sample. Specifically,
the asset pertaining to Item 1 was billed at the lower rate from February 1, 2011 through
November 30, 2011, resulting in a total underbilling of $23,306.20. In addition, the asset
pertaining to Item 2 was billed at the lower rate from March 31, 2011 through August 15,
2011, resulting in a total underbilling of $189.12.




                                                  7
KeyCorp established FDIC Collateral Review Process procedures that require the
company’s account managers to (1) review loan documentation after it is uploaded into
KeyCorp’s loan system and (2) enter an appropriate collateral type code (e.g.,
commercial mortgage loan, commercial non-mortgage loan) into the loan system. The
collateral type codes determine the fee rates used when computing monthly servicing fees
for assets in receivership. For both Items 1 and 2, KeyCorp’s account managers either
misinterpreted or overlooked documentation indicating that the collateral type code was a
commercial mortgage loan.

Items 3 and 4

KeyCorp calculated monthly servicing fees for two assets based on incorrect unpaid
principal balance amounts, resulting in overcharges to the FDIC. Specifically, KeyCorp
foreclosed on two non-performing mortgage loans but did not reduce the unpaid principal
balance amounts on the invoices to reflect the foreclosure sale price until the month after
the foreclosure took place. Further, KeyCorp did not change the collateral type on the
invoice for one of the assets to a JDC until the month following the foreclosure. Because
servicing fee rates for mortgage loans are higher than for JDCs, the FDIC was
overcharged.

KeyCorp established FDIC Invoicing procedures for preparing, reviewing, and approving
service fee invoices before they are submitted to the FDIC. The procedures require
KeyCorp’s Investor Reporting group to coordinate with various departments within the
company to obtain supporting documentation for fees billed. For our sampled assets,
KeyCorp’s account managers provided Investor Reporting with documentation indicating
that the loans had been foreclosed, and Investor Reporting included the appropriate
foreclosure fee on the monthly invoice. However, for one of the assets, KeyCorp’s
procedures did not ensure that Investor Reporting adjusted the collateral type of the asset
on the sampled invoice from a mortgage to a JDC. In addition, KeyCorp’s procedures
did not ensure that Investor Reporting reduced the unpaid principal balance amount for
either asset on the sampled invoices to reflect the foreclosure sales proceeds.

Item 5

On March 31, 2011, nine loans were transferred to KeyCorp from another loan servicer.
Under the terms of the transfer, the other servicer was responsible for paying expenses
(including legal expenses) on the loans through March 31, 2011 and KeyCorp was
responsible for paying expenses subsequent to that date. In May 2011, the KeyCorp OM
authorized KeyCorp to reimburse a law firm for expenses totaling $11,407 that had been
incurred between January and March 2011 on the nine loans. The KeyCorp OM advised
us that the other servicer had not paid the law firm on a timely basis and that it would be
in the FDIC’s interest to pay the expenses in order to maintain the continuity of the law
firm’s work. KeyCorp’s OM indicated that he had advised the other servicer’s OM that
KeyCorp would pay the legal expenses. However, the other servicer also paid the legal
expenses and was reimbursed by the FDIC for the same $11,407. Prior to our audit, the
law firm had not refunded the duplicate payment, nor had the FDIC requested a refund.



                                             8
KeyCorp’s Internal Billing Procedures

Although the payment discrepancies that we identified were not material in relation to the
total charges that we reviewed, the error rate in our sample indicates that a review by
DRR of KeyCorp’s internal procedures for preparing fee invoices is warranted.
Specifically, KeyCorp used an incorrect collateral type to calculate the monthly servicing
fee for 3 (or 7.7 percent) of the 39 loans that we tested and an incorrect unpaid principal
balance amount for 2 (or 5.1 percent) of the 39 loans. In addition, these discrepancies
were not detected by KeyCorp’s internal control processes. A review of KeyCorp’s
internal billing procedures could identify opportunities to mitigate the risk that the types
of discrepancies identified during the audit go undetected.

FDIC’s Review of KeyCorp’s Invoices

The APM and the OM and TM Appointment Memoranda establish roles and
responsibilities for the review, evaluation, and approval or rejection of contractor
invoices. In addition, the TMs that we spoke with were reviewing invoices, providing
feedback to the OM, and seeking opportunities to reduce costs and achieve efficiencies,
such as by eliminating unnecessary reporting costs. However, the OM indicated that
TMs could benefit from guidance that clarifies expectations regarding the review of
invoices. Such guidance could, for example, describe:

       a more risk-based approach for reviewing servicer invoices that include large
        amounts of charges and supporting documentation. Given that it may not be
        practical or cost-beneficial to review every charge on an invoice, an approach
        that considers dollar amounts, trends, or anomalies that would warrant a closer
        review may be prudent.

       the amount and type of documentation that TMs should maintain to support their
        review of charges.

       when a specialist should be consulted in assessing the reasonableness of costs,
        such as consulting with the Legal Division regarding legal expenses.

The TMs that we spoke with generally relied on their experience and professional
judgment when reviewing invoices. Guidance could promote a more consistent and
efficient approach to reviewing invoices. The OM also acknowledged that improved
guidance on reviewing invoices could help to mitigate risks associated with TM turnover
and varying degrees of experience at the TM level.




                                             9
Recommendations

We recommend that the Director, DRR:

1. Review KeyCorp’s internal billing procedures to determine whether they adequately
   mitigate the risk that the types of exceptions identified during our audit go
   undetected. Based on the results of the review, take appropriate steps to ensure that
   controls pertaining to the accuracy, timeliness, and support for invoices are adequate.

2. Evaluate whether guidance for a more risk-based approach to reviewing servicer
   invoices is warranted and feasible.


Controls Related to Data Reliability
DRR has taken a number of steps to ensure the reliability of data used to manage and
market assets serviced by KeyCorp. However, DRR can achieve greater assurance
regarding the reliability of such data by establishing and implementing a more structured
data quality program that includes such things as objective metrics to measure data
reliability, enhanced policies and guidance, and improved contract provisions that address
ongoing data reliability.

Contractual Requirements for Promoting Data Reliability

DRR included various requirements in the Contract that address data reliability.
Specifically, the Contract requires KeyCorp to develop an automated process for
converting loans from prior servicer systems and to reconcile the conversions while
adhering to standard industry requirements for data integrity. The Contract also requires
KeyCorp to validate the prime interest rate index and other data relevant to the servicing
of adjustable rate loans within 60 days of conversion and to report the results of the
review to the FDIC. During our site visit to KeyCorp in December 2011, representatives
of the company walked us through their processes for performing automated loan
conversions and reconciliations and validating interest rates. With respect to ongoing
(post conversion) data reliability, the Contract requires a Data Quality Report and
independent evaluations of the company’s operations by loan servicer rating agencies.5
At the time of our audit, DRR had not requested a Data Quality Report from KeyCorp or
defined the expected content of the report.

DRR Control Practices for Promoting Data Reliability

As part of the data conversion process, DRR verifies that selected loan data, such as account
number, account name, and principal balance, have been correctly entered into KeyCorp’s

5
 The Contract requires KeyCorp to provide the FDIC with the results of an independent evaluation of the
company’s operations by one or more loan servicer rating agencies. The results of the most recent
evaluations available, which included reviews of KeyCorp’s loan setup procedures for ensuring data
quality, were favorable.


                                                   10
loan system. DRR also conducts periodic compliance reviews of KeyCorp’s operational and
credit activities, which include validation of selected loan data to original source documents.
In addition, DRR validates the quality of selected loan data through the use of third-party due
diligence contractors prior to loan sales initiatives.

Data Discrepancies

As discussed in the previous finding, we identified discrepancies in key data elements,
such as unpaid principal balance amounts and collateral types, maintained in KeyCorp’s
system of record that resulted in erroneous billings and payments. In addition, as
described below, we noted discrepancies between the collateral type data element
reflected in KeyCorp’s records and the asset type data element reflected in the FDIC
Communication, Capability, Challenge, and Control system (4C).6 Because the FDIC
uses the asset type data element in calculating the estimated losses on receivership assets,
errors in this data element could affect the accuracy of the FDIC’s loss estimates.7

We identified 25 assets for which KeyCorp had notified DRR that the asset type data
element assigned by the FDIC appeared inconsistent with the collateral type data element
in KeyCorp’s records. We identified these assets based on a review of the same sample
of invoices described in the prior finding. In each case, KeyCorp had provided the FDIC
with loan file documentation supporting the collateral type for the asset. As reflected in
Table 3, the asset type data element in 4C had been changed for only 5 of the 25 assets as
of December 31, 2011.

Table 3: Discrepancies in Asset Type and Collateral Type Data Elements

     Asset Type as               Collateral Type as          Number of           Asset Types
     Reflected in 4C               Reflected in               Assets            Changed in 4C
                                KeyCorp’s Records
     015 - Commercial                  Mortgage                   12                   0

     015 – Commercial                    JDC                      1                    0

      030 – Mortgage                     JDC                      1                    0

     031 – Construction                  JDC                      11                   5
         Mortgage
                                        Totals                    25                   5

Source: OIG’s analysis of selected KeyCorp invoices and related asset data in 4C.




6
  DRR Circular 7210.2 identifies the FDIC’s 4C system as an integrated, end-to-end Web-based application
that provides full functionality to support franchise marketing, asset marketing, and asset management.
7
  The GAO conducts annual audits of the financial statements of the FDIC’s Deposit Insurance Fund and
Federal Savings and Loan Insurance Corporation Resolution Fund. Those audits include a review of the
FDIC’s loss estimates.


                                                   11
DRR personnel that we spoke with were unable to explain why the asset type data elements
for the 20 assets had not been changed. The personnel added that a formal process had not
been established to (1) review discrepancies between the asset type and collateral type data
elements or (2) assess the need to change the asset type data element when appropriate. At the
close of our audit field work, DRR had begun to develop written guidance for reviewing
discrepancies between the asset type and collateral type data elements.

Data Reliability Metrics and Controls

FDIC Circular 1301.3, Enterprise Data Management Program, states that the FDIC’s policy
is to manage all data efficiently and effectively, from a corporate perspective, in part, by
ensuring that data supporting business operations is reliable, accurate, current, useful,
easily accessible, and available in a timely manner. GAO’s November 1999 publication
entitled, Standards for Internal Control in the Federal Government, identifies internal
control activities that organizations can consider implementing to promote accurate and
complete computer-processed data. According to the publication, organizations should
design and implement internal control activities based on related costs and benefits. In
this context, organizations may, based on an assessment of risk, determine that data are
reliable even though they are not error free. DRR took such an approach when it
established its prior Data Quality Program in September 2005 to ensure “highly reliable
and accurate data” within its priority IT systems. Under the prior program, critical data
elements within DRR’s priority IT systems were considered reliable if they demonstrated
an accuracy rate of 90 percent or better based on data quality testing. Adopting a similar
approach with respect to KeyCorp could help DRR determine whether errors identified in
KeyCorp’s data are within acceptable ranges. It would also facilitate DRR’s ongoing
efforts to assess the adequacy of data reliability controls, both in the Contract and in
DRR’s oversight management activities.

DRR Circular 7210.2, Use of 4C for Franchise Marketing, Asset Marketing and Asset
Management Activities, dated November 18, 2008, established a data quality
improvement process for internally managed assets. However, the circular does not
reflect DRR’s current business model of relying on servicer systems, rather than the
FDIC’s 4C system, as the authoritative source of data used to manage and market
receivership loans. Consequently, DRR personnel had not implemented the data quality
improvement process in Circular 7210.2 for loans serviced by KeyCorp. During our
audit period, DRR had begun to assess the use of the FDIC’s 4C system in the current
business environment and whether to modify or rescind Circular 7210.2, as appropriate.

Absent additional data reliability controls, the FDIC has reduced assurance that data used
to manage and market receivership commercial loans is reliable. In addition, the FDIC
may not be managing corporate data in the most efficient manner by taking full
advantage of the various procedures performed by KeyCorp and DRR personnel to
ensure data quality and integrity. In particular, we noted that prior to marketing certain
receivership loans serviced by KeyCorp, DRR had contracted with third-party due
diligence firms to validate the quality of data that may already have been validated by
KeyCorp or DRR personnel. Given the significant amount of data and number of parties
involved with receivership assets, including external loan servicers, it is important for the


                                             12
FDIC to have an integrated approach for ensuring that receivership loan data used to
facilitate asset management and marketing decisions are reliable.

Recommendation

We recommend that DRR:

3. Establish and implement a more structured program for promoting the reliability of
   receivership data. Such a program should consider the data reliability issues described
   in this report, such as:

      ensuring the accuracy of asset type data,
      updating current policy and guidance to reflect DRR’s use of contractor systems
       to support asset management and marketing,
      developing objective metrics to measure data reliability, and
      ensuring current and future contracts contain clearly defined provisions for
       ongoing data reliability.


Controls Related to Sensitive Information
The FDIC conducted preliminary security checks and obtained signed confidentiality
agreements for all of the KeyCorp contractor and subcontractor personnel that we
reviewed. However, we identified instances in which OPM background investigations
had not been initiated as required by FDIC policy. In addition, KeyCorp did not obtain
the FDIC’s prior written approval before engaging a subcontractor to work on the
Contract or include certain security-related provisions in its subcontracts as required by
the Contract. Finally, the FDIC was working to apply its Outsourced Service Provider
Assessment Methodology to assess security risks and controls at KeyCorp.

Background Investigations and Confidentiality Agreements

We selected a non-statistical sample of 12 KeyCorp contractor and subcontractor
personnel to determine whether the FDIC had initiated an appropriate background
investigation and obtained a signed confidentiality agreement. We found that the FDIC
conducted preliminary security checks and obtained signed confidentiality agreements for
all 12 personnel. However, the FDIC had not ordered an OPM background investigation
for 3 of the 12 individuals who had access to sensitive receivership loan information, as
required by FDIC policy.

FDIC Circular 1610.2, Personnel Security Policy and Procedures for FDIC Contractors,
states that individuals designated as key personnel “who will not have direct operational
duties under the task” will be subject to an integrity and fitness check prior to contract
award. Consistent with Circular 1610.2, DOA’s Security and Emergency Preparedness
Section (SEPS) performed the required integrity and fitness checks and concluded that




                                             13
the checks did not reveal any information that would preclude the individuals from
obtaining a contract or contract work with the FDIC.

Circular 1610.2 also requires contractor and subcontractor personnel with access to
sensitive FDIC information to provide the FDIC with a completed Standard Form (SF)
85P, Questionnaire for Public Trust Positions, and to have an OPM background
investigation commensurate with the risk level of their position. A completed SF 85P is a
prerequisite for ordering an OPM background investigation. None of the three
individuals that we identified as exceptions had submitted a completed SF 85P because
Circular 1610.2 does not require the form to be submitted as part of the pre-award
integrity and fitness check and the OM did not ask these individuals to provide the form
due to an oversight. The KeyCorp Project Manager advised us that KeyCorp was not
aware that further investigation of these individuals was needed given the FDIC’s
preliminary approval prior to contract award. After we brought this matter to DRR’s
attention, the OM requested that KeyCorp direct the three individuals to complete
SF 85Ps, and KeyCorp subsequently submitted the forms to the FDIC. Prior to those
submissions, the lack of OPM background investigations for the three individuals
reduced the FDIC’s assurance that they satisfied the FDIC’s standards for integrity and
fitness.

Risk Level Designations

OPM background investigations for 9 of the 12 contractor and subcontractor personnel
that we reviewed were based on a risk level designation of “moderate.” However,
Section 7.5.09, Risk Level Designation, of the Contract states that the risk level for
purposes of conducting background investigations is “high.” We brought this
discrepancy to the attention of DOA contracting and DRR oversight management
officials. Subsequent to the close of our field work, the CO advised us that, after
consulting with a DRR Information Technology Manager, the Contract would be
modified to reduce the required level of background investigation to “moderate” based on
the job duties and sensitivity of information to be handled for the Contract. The CO
indicated that this new risk level should reduce the costs of the background investigations
required by the Contract by as much as $238,000. The CO also indicated that similar
modifications would be implemented for the other external loan servicer contracts,
potentially resulting in significant additional cost savings to the FDIC.8

Subcontractor Approvals

KeyCorp did not obtain prior written approval from the CO before engaging one of its
three subcontractors to work on the Contract. Provision 7.5.6-04, Approved
Subcontractors and Consent to Subcontract, of the Contract requires prior written
approval by the CO for all subcontractors that perform any of KeyCorp’s responsibilities
under the Contract. KeyCorp engaged the subcontractor in June 2011 to perform up to

8
 We did not evaluate the appropriateness of the FDIC’s decision to lower the risk level rating for
conducting background investigations under the Contract or under other external loan servicer contracts as
part of the audit.


                                                    14
100 percent of the document scanning and indexing services under the Contract. In
addition, KeyCorp personnel informed us that the subcontractor supported KeyCorp’s
mail room operations and performed other activities that involved access to potentially
sensitive information, such as check and loan file documentation pertaining to FDIC
receiverships. We identified the subcontractor as providing services under the Contract
during our December 5, 2011 walkthrough of KeyCorp’s offices in Overland Park,
Kansas.

KeyCorp had not identified the subcontractor under the Contract or included the firm in
its Subcontracting Plans9 submitted to the FDIC because it considered the subcontractor
to be a shared resource supporting multiple KeyCorp clients. As such, KeyCorp
determined that the firm would not qualify as a subcontractor under the Contract. As a
result, the FDIC did not have the opportunity to assess the subcontractor’s qualifications,
initiate background investigations of its employees, or obtain confidentiality agreements
from the firm or its personnel. The CO advised us that KeyCorp was informed on
December 5, 2011, that the subcontractor personnel should discontinue providing
services under the Contract until such time as written approval is obtained from the
FDIC. On December 7, 2011, KeyCorp submitted a revised Subcontracting Plan to the
FDIC that identified the subcontractor under the Contract. The CO formally approved
the subcontractor to provide services under the Contract on May 8, 2012.

Contract Security Provisions

We reviewed two of the three KeyCorp subcontracts and found that KeyCorp did not
include certain provisions related to protecting sensitive information and background
investigations in the subcontracts as required by the Contract. KeyCorp’s Project
Manager was not aware of the requirement to include these provisions in the
subcontracts. In addition, as previously noted, KeyCorp did not consider one firm to be a
subcontractor for purposes of the Contract. Further, the FDIC’s contract oversight
activities did not include a review of KeyCorp’s subcontracts to ensure that they included
the required provisions. The lack of the referenced security provisions reduced the
FDIC’s assurance that subcontractor personnel would protect sensitive information
consistent with the FDIC’s policies and that subcontractor personnel satisfied the FDIC’s
minimum standards of fitness and integrity.

Security Oversight

The FDIC uses its Outsourced Service Provider Assessment Methodology to provide
security oversight of outsourced service providers, such as KeyCorp. The methodology
employs a risk-based approach for addressing security risks and evaluating compliance
with security-and privacy-related requirements. It also requires, among other things, that
the FDIC complete various security- and privacy-related documents for outsourced
service providers.10 At the time of our audit, the FDIC was in the process of applying the
9
   Subcontracting Plans identify, among other things, the names and capabilities of subcontractors, the
rationale for using subcontractors, and a description of the work to be performed by subcontractors.
10
   Such documents include an Application Security Assessment, Privacy Threshold Analysis, Security
Synopsis Statement, and Contract Clause Verification Checklist.


                                                     15
Outsourced Service Provider Assessment Methodology to KeyCorp. Specifically, the
FDIC was collecting security-and privacy-related information from KeyCorp and, in
March 2012, conducted a site-visit of KeyCorp’s data center.

In our 2011 information security evaluation report required by the Federal Information
Security Management Act, we noted that the FDIC’s Division of Information Technology
was working with the Corporation’s divisions and offices to identify all of the outsourced
information services (and associated service providers) used by the Corporation.11 Based
on the large number of services and service providers identified through this effort, the
report recommended that the FDIC complete the development and implementation of a
formal strategy that defines a risk-based approach for applying the Outsourced Service
Provider Assessment Methodology to the FDIC’s inventory of outsourced information
systems and services. DRR’s application of the methodology is consistent with that
strategy. When complete, the results of the methodology will provide the FDIC with a
greater understanding of KeyCorp’s controls and practices for protecting FDIC data and
complying with the security-related provisions of the Contract.

As a result of our prior recommendation and the FDIC’s ongoing corrective action, we
are not making a recommendation to address security oversight. Recommendations
associated with the other issues we identified related to the controls over sensitive
information follow.

Recommendations

We recommend that the Director, DRR:

4. Enhance existing controls for ensuring that contractor and subcontractor personnel
   provide the FDIC with completed SF 85Ps when appropriate.

5. Coordinate with DOA to modify the KeyCorp and other servicer contracts, as
   appropriate, to reflect a risk-based and cost-effective approach to completing
   background investigations for contractor and subcontractor personnel.

We recommend that the Director, DOA:

6. Enhance controls designed to ensure that (a) subcontractors are approved by FDIC
   contracting personnel prior to providing services under FDIC contracts and
   (b) subcontracts contain appropriate security provisions.

7. Coordinate with KeyCorp to ensure that all required clauses related to protecting
   sensitive FDIC information are included in KeyCorp’s subcontracts.




11
  OIG report entitled, Independent Evaluation of the FDIC’s Information Security Program—2011 (AUD-
12-002), dated October 31, 2011.


                                                16
CORPORATION COMMENTS AND OIG EVALUATION
The Directors, DOA and DRR, provided a joint written response, dated June 19, 2012, to
a draft of this report. The response is presented in its entirety in Appendix 5. In the
response, the Directors concurred with all seven of the report’s recommendations and
described completed and planned corrective actions to address the recommendations.

Subsequent to the receipt of management’s response, DRR and DOA officials clarified
actions that will be taken to address two of the report’s recommendations. Specifically, a
DRR official advised us that, in addition to the completed corrective actions described in
management’s response to Recommendation 1, DRR plans to review KeyCorp’s internal
billing procedures to determine whether they adequately mitigate the risk of the types of
exceptions identified in this report and recommend enhancements as necessary. DRR
plans to review KeyCorp’s billing procedures by August 31, 2012. In addition, a DOA
official advised us that, in addition to the planned corrective actions described in
management’s response to Recommendation 6, DOA is considering additional steps to
promote awareness among OMs and TMs of the issues described in this report pertaining
to subcontractor approvals and subcontract security provisions.

Before finalizing our report, we provided relevant portions of our draft report to KeyCorp
for its review and informal comment. In a letter dated May 31, 2012, KeyCorp described
the status of completed and planned corrective actions to address the issues described in
the report. We considered the information provided by KeyCorp in finalizing our report.

A summary of the Corporation’s corrective actions is presented in Appendix 6. The
completed or planned actions are responsive to the recommendations, and the
recommendations are resolved.




                                            17
                                                                                 Appendix 1

                      Objective, Scope, and Methodology


Objective

Our performance audit objective was to assess (1) the extent to which payments made by
the FDIC for services provided by KeyCorp were adequately supported and in
compliance with contract terms, (2) the reliability of selected data used to manage and
market assets serviced by KeyCorp, and (3) the adequacy of certain controls over
sensitive information handled by KeyCorp.

We conducted this performance audit from October 2011 to May 2012 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.

Scope and Methodology

The scope of this audit included invoices approved for payment to KeyCorp from the
award of the Contract on July 26, 2010 through September 30, 2011. To achieve the
audit objectives, we performed the following procedures and techniques:

      Reviewed:

            The Contract, including modifications and selected task orders.

            Applicable FDIC and KeyCorp policies and procedures related to contract
             oversight, invoicing, data reliability, and protection of sensitive information.

            Loan file documentation in KeyCorp’s loan system, which we accessed
             through KeyCorp’s secure Internet portal.

            DRR compliance review reports completed for KeyCorp at the time of our
             audit.

            Third-party review reports of KeyCorp’s operations available at the time of
             our audit.

      Interviewed FDIC personnel with contract oversight or support responsibilities,
       including the CO, the OM, and various TMs.

      Interviewed KeyCorp officials and personnel responsible for contract
       performance.




                                              18
                                                                                        Appendix 1

                       Objective, Scope, and Methodology

        Conducted a site visit and performed a walkthrough of the KeyCorp loan
         servicing facility during the week of December 5, 2011 in Overland Park, Kansas.

        Tested a sample of invoices12 to determine whether DRR personnel reviewed and
         approved the invoices prior to payment and the invoices were for amounts
         allowed by the Contract. Our sample consisted of:

            a statistically random sample of 40 invoices totaling $1,055,578 that were
             taken from the population of 282 invoices less than $300,000 dated between
             June 1, 2011 and September 30, 2011 that the FDIC had approved for
             payment to KeyCorp as of September 30, 2011. The 40 sampled invoices
             represented 25 percent of the $4,215,291 in invoices less than $300,000
             approved for payment during that period.

            all four invoices of $300,000 or more that the FDIC approved for payment to
             KeyCorp during the period from Contract award on July 26, 2010 through
             September 30, 2011. These four invoices totaled $1,543,219, or 13.6 percent,
             of the $11.4 million approved for payment to KeyCorp through September 30,
             2011.

        Tested a non-statistical sub-sample of 70 loans from the sampled invoices
         described above to assess the support for the amounts billed.

        Reviewed all significant month-end suspense balances to determine whether they
         had an impact on the service fees billed for the months of March through August
         2011. We considered the balances to be significant if they were greater than or
         equal to $500,000, or greater than or equal to $100,000 and outstanding more than
         30 days.

        Tested a non-statistical sample of 25 loans to assess consistency between the
         collateral type and asset type for the loans. The loans were in the FDIC’s 4C
         system as of December 31, 2011. In each case, KeyCorp had identified an
         inconsistency between the FDIC assigned asset type for the loan and the collateral
         type assigned to the loan based on a review of collateral by KeyCorp.

        Tested a non-statistical sample of 12 contractor and subcontractor personnel out
         of a population of more than 100 personnel who potentially had access to


12
  We sampled from three types of invoices: (1) KeyCorp-prepared invoices for loan servicing fees;
(2) KeyCorp-prepared invoices for pass-through costs that included, among other things, advances under
unfunded commitments and advances for the protection of assets; and (3) FDIC-prepared invoices for other
payments, such as forwarding to KeyCorp principal and interest amounts that had been sent to the FDIC by
prior servicers.



                                                  19
                                                                              Appendix 1

                    Objective, Scope, and Methodology

       sensitive FDIC information, for evidence of background investigations and signed
       confidentiality agreements.

      Reviewed the narrative for a non-statistical sample of two of the three KeyCorp
       subcontracts to assess compliance with the provisions of the FDIC’s contract with
       KeyCorp.

We used both statistical and non-statistical sampling techniques to support the findings,
conclusions, and recommendations in this report. However, none of these sampling
techniques can be used to project to the intended population by standard statistical
methods. We performed the audit work at the FDIC’s offices in Dallas, Texas, and
KeyCorp’s offices in Overland Park, Kansas.

Internal Control, Reliance on Computer-processed Information, Performance
Measurement, and Compliance with Laws and Regulations

Consistent with the stated audit objective, we did not assess the FDIC’s or KeyCorp’s
overall internal control or management control structure. We relied on information in
FDIC and KeyCorp information systems and reports and interviews of FDIC and
KeyCorp personnel to understand and assess the specific internal controls relevant to our
audit objective. These included controls over the preparation and review of invoices,
controls to ensure the quality and integrity of data, and controls over sensitive
information.

We obtained data from various FDIC and KeyCorp systems. Where appropriate, we
corroborated data obtained from systems that were used to support our audit conclusions
with information from various sources, including loan file documents and testimonial
evidence. However, we determined that specific information system controls were not
significant to the audit objective and, therefore, we did not evaluate the effectiveness of
information system controls.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. We did not assess the strengths and weaknesses of the FDIC’s
annual performance plan in meeting the requirements of the Results Act because such an
assessment was not part of the audit objective.

A wide range of potential risks for fraud exists with any contract. Fraud risks related to
this audit included false claims by the contractor whose expenses are passed through to
the FDIC, or duplicate claims by or payments to KeyCorp. We assessed the risk of fraud
and abuse related to our objective in the course of evaluating audit evidence.




                                            20
                                                                           Appendix 1

                    Objective, Scope, and Methodology

Prior Audit Coverage

We considered prior audit coverage of areas related to our audit objective, including the
report entitled, Independent Evaluation of the FDIC’s Information Security Program—
2011, dated October 31, 2011. In that report, the OIG noted that the FDIC had developed
a methodology for addressing security risks associated with contractor systems and
assessing contractor compliance with security-and privacy-related contract requirements.
However, the report concluded that work remained to implement the methodology and
recommended that the FDIC complete the development and implementation of a formal
strategy that defines a risk-based approach for applying the methodology.




                                           21
                                                                              Appendix 2

                   Monetary Benefits Terms and Results

The Inspector General Act of 1978, as amended, (1) defines the terminology associated
with monetary benefits identified by auditors and (2) establishes the reporting
requirements for the identification and disposition of questioned costs in audit reports. In
addition, the explanations provided below indicate that the process for actual recovery of
questioned costs involves various stages, evaluations of factors, and decision-making
processes. The following defines the key terms associated with monetary benefits and
explains how they relate to each other.

      First, auditors may identify “questioned costs” based on an alleged violation of a
       provision of a law, regulation, contract, grant, cooperative agreement, or other
       agreement or document governing the expenditure of funds. In addition, a
       questioned cost may be a finding in which, at the time of the audit, a cost is not
       supported by adequate documentation (i.e., unsupported questioned cost); or a
       finding that the expenditure of funds for the intended purpose is unnecessary or
       unreasonable. It is important to note that the OIG does not always expect to
       recover 100 percent of all questioned costs.

      The next step in the process of making a decision about questioned costs is a
       “management decision.” This is the final decision issued by management after
       evaluating the finding(s) and recommendation(s) included in an audit report. The
       management decision must specifically address the questioned costs by either
       disallowing or not disallowing these costs. A “disallowed cost” is a questioned
       cost that management, in a management decision, has sustained or agreed should
       not be charged to the government.

      Once management has disallowed a cost and, in effect, sustained the auditor’s
       questioned costs, the last step in the process takes place which culminates in the
       “final action.” This is the completion of all actions that management has
       determined are necessary to resolve the findings and recommendations included
       in an audit report. Typically, in the case of disallowed costs, management will
       evaluate factors beyond the conditions in the audit report, such as qualitative
       judgments of value received or the cost to litigate, and decide whether it is in the
       FDIC’s best interest to pursue recovery of disallowed costs.

As indicated on the next page, a total of $12,057.05 in questioned costs were identified
during this audit.




                                            22
                                                                               Appendix 2

              Monetary Benefits Terms and Results

 Monetary Benefits

 Questioned Costs Description                                     Questioned Costs


 Incorrect Loan Service Fee Payments                                        $649.73
 Duplicate Payment of Pass-Through Cost                                  $11,407.32


 Total Amount of Questioned Costs                                        $12,057.05

Source: OIG’s analysis of invoices as described in this report.




                                            23
                                                                                   Appendix 3

                                 Glossary of Terms

      Term                                           Definition
Background          Includes various types of investigations conducted by OPM for the FDIC.
Investigation       All contractor personnel with long-term access to FDIC facilities,
                    information technology systems, or sensitive information must undergo an
                    OPM background investigation commensurate with the designated risk
                    level associated with the duties of each position.

Commercial          A credit initiated for business purposes that may be secured or unsecured.
Loan                Security for commercial loans may include, among other things, accounts
                    receivable, equipment, inventory, real estate properties, or a combination of
                    assets.

Contracting         The FDIC representative with delegated authority to enter into and legally
Officer             bind, administer, and terminate contractual instruments on behalf of the
                    FDIC.

Contractor          An individual, corporation, partnership, joint-venture, or other third-party
                    entity that enters into a contract with the FDIC to provide goods, services,
                    or other requirements pursuant to its terms and conditions.

Fee Invoices        Invoices that include servicing fees based on a loan’s unpaid principal
                    balance, collateral type, performance status; loss mitigation fees for
                    activities such as compromises and restructures; foreclosure fees; and report
                    preparation fees.

Judgments,          A judgment is a court ruling entered for or against a party in litigation,
Deficiencies, and   usually for an unpaid amount due from a debtor. A deficiency is the
Charge-Offs         remaining amount owed by a borrower when a foreclosure sale does not
                    produce sufficient funds to pay a mortgage debt in full. A charge-off
                    represents the uncollectable portion of a loan.

Key Personnel       Contractor personnel deemed essential and critical to the performance of the
                    contract and who are contractually required to perform by the Key
                    Personnel contract clause.

Outsourced          A methodology developed by the FDIC that provides a risk-based process
Service Provider    for addressing security risks associated with contractor systems and
Assessment          assessing contractor compliance with security-and privacy-related
Methodology         requirements.

Pass-Through        Generally these costs include expenditures that satisfy unfunded loan
Costs               commitments, such as construction advances, or that protect the FDIC’s
                    interest in an asset, such as legal fees, property taxes, and insurance.

Risk Level          An evaluative classification designation assigned to contracts or contract
                    labor categories based on duties performed that have the potential for


                                              24
                                                                                Appendix 3

                             Glossary of Terms

     Term                                          Definition
                affecting the integrity, efficiency, and/or effectiveness of the Corporation’s
                mission, and when misused, may diminish public confidence.

Sensitive       Any information, the loss, misuse, or unauthorized access to or modification
Information     of which, could adversely impact the interests of the FDIC in carrying out
                its programs or the privacy to which individuals are entitled.

Subcontractor   An individual, corporation, partnership, joint-venture, or other third-party
                entity that has entered into a contract with an FDIC contractor to perform
                work on behalf of the FDIC.




                                           25
                                                                    Appendix 4

                             Acronyms

4C       Communication, Capability, Challenge, and Control system
APM      Acquisition Policy Manual
CO       Contracting Officer
DOA      Division of Administration
DRR      Division of Resolutions and Receiverships
GAO      United States Government Accountability Office
JDC      Judgments, Deficiencies, and Charge-offs
OIG      Office of Inspector General
OM       Oversight Manager
OPM      Office of Personnel Management
SEPS     Security and Emergency Preparedness Section
SF 85P   Standard Form 85P
TM       Technical Monitor




                                   26
                                                                                   Appendix 5
                    Corporation Comments
_____________________________________________________________




1601 Bryan Street, Dallas, TX 75201                                                   Dallas Regional Office


  DATE:                               June 19, 2012

 MEMORANDUM TO:                       Stephen M. Beard
                                      Deputy Inspector General for Audits and Evaluations

 FROM:                                Arleas Upton Kea, Director /Signed/
                                      Division of Administration

                                      Bret D. Edwards, Director /Signed/
                                      Division of Resolutions and Receiverships

 SUBJECT:                             Management Response to the Draft OIG Audit Report Entitled,
                                      Controls Related to the FDIC’s Contract with KeyCorp Real
                                      Estate Capital Markets, Inc. (Assignment No. 2011-087)

  This is in response to the subject Draft Office of Inspector General (OIG) Audit Report, issued
  May 16, 2012. In its report, the OIG made two recommendations to the Division of
  Administration (DOA) and five recommendations to the Division of Resolutions and
  Receiverships (DRR).

  MANAGEMENT DECISION

  Recommendation 1 (DRR): Review KeyCorp’s internal billing procedures to determine
  whether they adequately mitigate the risk that the types of exceptions identified during our audit
  go undetected. Based on the results of the review, take appropriate steps to ensure that controls
  pertaining to the accuracy, timeliness, and support for invoices are adequate.

  DRR Management Response: DRR concurs with the recommendation.

  Corrective Action: It should be noted that all billing discrepancies noted in this audit have been
  resolved. KeyCorp has reimbursed the corporation the sum of $l2,057.05 as of February 9, 2012.
  A more enhanced process has been implemented by KeyCorp to review the Asset Types (AT)
  against the loan documents at conversion from the receiverships. Any and all discrepancies
  identified are submitted by KeyCorp to the Oversight Manager (OM) and the Accounting
  Technical Monitor (TM) for approval to change. Also, KeyCorp has enhanced its quality control
  process to ensure the unpaid principal balances are correct where multiple fees may be
  applicable. To avoid duplicate billing issues between the loan servicer and the receivership or
  another loan servicer. KeyCorp has incorporated in the conversion calls the discussion on
  handling expenses pre-conversion and post-conversion. Additionally, KeyCorp is posting all loan
  balances immediately as it relates to foreclosures where multiple fees would be assessed

  Completion date: April 30, 2012



                                                  27
                       Appendix 5

Corporation Comments




         28
                       Appendix 5

Corporation Comments




         29
                       Appendix 5

Corporation Comments




         30
                                                                                  Appendix 6

             Summary of the Corporation’s Corrective Actions


 This table presents corrective actions taken or planned by the Corporation in response to the
 recommendations in the report and the status of the recommendations as of the date of report
 issuance.

Rec.    Corrective Action: Taken or            Expected          Monetary   Resolved:a   Open or
No.               Planned                    Completion Date     Benefits   Yes or No    Closedb

 1     All billing discrepancies noted in   August 31, 2012      $12,057    Yes          Open
       this report have been resolved.
       In addition, KeyCorp enhanced
       its processes for ensuring the
       accuracy of asset types and
       unpaid principal balance
       amounts; took steps to mitigate
       the risk of duplicate payments;
       and began posting loan balances
       immediately for foreclosures.

       A DRR official also advised us
       that DRR will review KeyCorp’s
       internal billing procedures to
       determine whether they
       adequately mitigate the risk of
       the types of exceptions identified
       in this report and recommend
       enhancements as necessary.
 2     DRR will assess its current          September 30, 2012              Yes          Open
       procedures for reviewing
       monthly invoices to determine
       whether a more risk-based
       approach is feasible.
 3     DRR has implemented a formal         October 31, 2012                Yes          Open
       process to identify exceptions
       and update asset types, and
       developed a 4C data integrity
       program. Additionally, DRR is
       nearing completion of the
       standardized loan data structure
       project, which has recommended
       modifying the servicer’s
       Statement of Work to require the
       loan servicers to validate system
       data. In addition, DRR will
       enhance its semi-annual audit
       program to conduct an expanded
       review of data fields deemed
       critical.



                                                 31
                                                                                        Appendix 6

              Summary of the Corporation’s Corrective Actions

4       DRR implemented a monthly            September 30, 2012                   Yes            Open
        verification process in
        coordination with FDIC
        Personnel Security Management
        to ensure that SF 85Ps are
        obtained from contractor
        personnel when appropriate. In
        addition, a procedural
        memorandum will be developed
        for OMs to provide guidance in
        monitoring personnel changes on
        loan servicing contracts.
5       DRR, in coordination with DOA,       June 7, 2012                         Yes            Closed
        lowered the risk level ratings of
        all loan servicing contracts from
        high to moderate.
6       DOA will revise the OM and           September 25, 2012                   Yes            Open
        TM Appointment Memoranda to
        reference to the requirement for
        subcontractor approvals and
        revise the Post-award
        Conference Agenda to address
        subcontractor security
        provisions. A DOA official also
        advised us that DOA is
        considering additional steps to
        promote awareness among OMs
        and TMs of the issues pertaining
        to subcontractor approvals and
        subcontract security provisions.
7       DOA will request a copy of each      August 15, 2012                      Yes            Open
        KeyCorp subcontract to verify
        that all required clauses have
        been included.
a
    Resolved – (1) Management concurs with the recommendation, and the planned, ongoing, and completed
                   corrective action is consistent with the recommendation.
               (2) Management does not concur with the recommendation, but alternative action meets the
                   intent of the recommendation.
               (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0)
                   amount. Monetary benefits are considered resolved as long as management provides an
                   amount.
b
  Recommendations will be closed when (a) Corporate Management Control notifies the OIG that corrective
actions are complete or (b) in the case of recommendations that the OIG determines to be particularly
significant, when the OIG confirms that corrective actions have been completed and are responsive.




                                                   32
